NATIONAL RIGHT TO WORK LEGAL DEFENSE FOUNDATION, INC.
8001 BRADDOCK ROAD, SUITE 600, SPRINGFIELD, VIRGINIA 22160
FRANK D. GARRISON

Phone:
Fax:
Email:

Staff Attorney

Admitted & Licensed in Indiana Only

(703) 321-8510
(703) 321-9319
fdg@nrtw.org

May 20, 2021
By Electronic Filing Only
Hon. Scott S. Harris
Clerk, Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543-0001
Re: Patrick Doughty, et al. v. New Hampshire SEA
Case No. 20-1534
Dear Mr. Harris:
Pursuant to Supreme Court Rule 15.5, Petitioners expressly waive the 14-day
waiting period for the Clerk to distribute the petition and brief in opposition.
Petitioners intend to file a reply brief on or before May 24, 2021.
By copy of this letter, I am serving counsel for all parties by email and U.S. mail.
Thank you for your consideration of this matter.
Sincerely,
/s/ Frank D. Garrison
Frank D. Garrison
Counsel of Record for Petitioners
CC:

Ramya Ravindran, Counsel of Record for respondent
(by email and United States mail).

Defending America’s working men and women against the injustices of forced unionism since 1968.

